M E M O R A N D U M

To:       Linda Thomsen

From:     Mary Beth ~    u   l   l   i   v   a   m

Date:     December 12,2007

Re:       Oversight of Receivers and Distribution Agents (Report No. 432)


Attached is our evaluation report on the Oversight of Receivers and Distribution
Agents. The report reflects the comments we received on prior drafts.

We hope you found the report useful and welcome any suggestions from you
concerning how we could improve future evaluations and audits. The courtesy and
cooperation of you and your staff are greatly appreciated.

Attachment

Cc:     Mark Adler
        Beth Badawy
        Alistaire Bambach
        Joan McKown
        Lou Mejia
        Nancy Morris
        Lynn Powalski
        Darlene Pryor
        Diego Ruiz
        Chuck Staiger
        Peter Uhlmann

        Rick Hillman, GAO
      OVERSIGHT OF RECEIVERS
      AND DISTRIBUTION AGENTS

                       EXECUTIVE SUMMARY
Our evaluation found that the Division of Enforcement's (Enforcement's) oversight of
receivers and other third party agents (distribution agents)l responsible for
collecting, safeguarding or disbursing assets can be enhanced through better
reporting by receivers and distribution agents.
Orders appointing receivers and distribution agents do not typically specify how
often, and in what format, they should report financial information about cash and
non-cash assets collected by receivers and administrative costs incurred by
receivers/distribution agents. Also, the Commission does not consistently track this
information.
Enforcement should better ensure that receivers and/or distribution agents provide
periodic, formal reports describing receivers' efforts to garner assets, administrative
costs incurred and the financial condition of the assets collected. Enforcement
should also request that receivers/distribution agents provide a final accounting of
all assets collected and disbursed in a specified format. Enforcement should provide
guidance or training to staff on receiverldistribution agent oversight.
Enforcement generally agreed with the report's findings and recommendations.



 OBJECTIVES, SCOPE AND METHODOLOGY
Our objective was to review Enforcement's coordination with receivers and
distribution agents and to identlfy improvements in Enforcement's oversight of
receivers/distribution agents.
We considered the following topics:
        How often and in what format receivers/distribution agents should report
        their activities, administrative costs (billings; job-related expenses such as
        lodging and travel; professional fees paid for legal, accounting and other
        services), and the financial condition of the assets collected by receivers;

1 For simplicity, we use the term "distribution agent" to include all third-party agents (except
receivers) in both civil and administrative proceedings who oversee or disburse funds
through an appointment outlined in a court or Commission order. Examples of third party
agents include distribution consultants, fund administrators, and plan administrators.
       Whether receiversldistribution agents should provide a final accounting of all
       assets collected and disbursed;
       Whether Enforcement should issue staff guidance or provide training on
       receiverldistribution agent oversight (e.g.,reviewing administrative costs and
       drafting distribution plans); and
       Whether receiversldistribution agents should be audited at the conclusion of
       the receivership or funds distribution.
We discussed these topics with Enforcement staff who work with receivers and
distribution agents. We reviewed documentation, such as orders appointing
receiversldistribution agents, administrative costs, activity reports, and financial
statements from receiversldistribution agents, and distribution plans from seven
Enforcement cases (five civil cases and two administrative proceedings) i n which
receiversldistribution agents were appointed.
We conducted this evaluation from March 2007 to September 2007 in accordance
with the Quality Standards for Inspections, issued in January 2005, by the
President's Council on Integrity and Efficiency and the Executive Council on
Integrity and Efficiency.



                             BACKGROUND
A court or the Commission may appoint a receiver or a distribution agent to
safeguard assets, create a proposed distribution plan, and distribute assets in
accordance with a distribution plan approved by the court or the Commission. In
some administrative proceeding cases, Commission staff distribute assets.
For assets that are within the jurisdiction of the court presiding over a n
Enforcement civil case, the Commission typically recommends a receiver to the
court. A court appoints a receiver to preserve the property of a defendant pending
action against him. A receiver may be appointed when there is danger that, in the
absence of such a n appointment, the property could be lost, removed or dissipated.
I n Commission civil cases, a receiver is authorized to garner assets and take over a
business or public company.
While a judge in a securities case brought by the Commission usually appoints a
receiver recommended by Enforcement staff, the judge may select any qualified
receiver. An Enforcement attorney typically drafts a proposed court order
appointing and outlining the receiver's responsibilities. The judge may make
changes to and issues the final order.
Although a receiver reports to the court (not the Commission), Commission staff
monitor a receiver's activities and review a receiver's administrative costs. The
judge must approve a receiver's administrative costs before the receiver is paid.
Enforcement attorneys may object to any administrative costs that appear too high
or unreasonable.
Other third party agents, such as distribution consultants, fund administrators and


OVERSIGHT OF RECEIVERS AND DISTRIBUTION AGENTS                       DECEMBER 12,2007
(REPORT No. 432)
plan administrators (distribution agents)2, perform several functions similar to those
performed by receivers. They may safeguard assets, develop a proposed distribution
plan, and distribute assets in accordance with a n approved plan. In Commission
civil cases, distribution agents (unlike receivers) are not permitted to garner assets
or take over a business or public company. Distribution agents may be appointed
through a court order in civil cases or a Commission order in administrative
proceedings. Commission staff monitor the activities of distribution agents similarly
to the way they monitor receivers' activities.
Receivers a n d o r distribution agents should provide the courts (in civil cases) and
Enforcement staff with periodic reports documenting their activities to garner
assets3, administrative costs incurred, and a description of the assets garnered and
disbursed (inflows and outflows). Receiversldistribution agents generally use their
discretion in deciding how often, and in what format, to report this information, as
the manner for reporting this information is not routinely specified in the
appointment orders.
Inflows include cash and non-cash assets collected by the receiverldistribution agent
and interest earned. Outflows include administrative costs, taxes, and distributions
to harmed investors and the U.S. Treasury, and may also include expenses related
to a business or public company taken over by a receiver.
                                 .---

When practicable, penalties and disgorgements collected by a receiverldistribution
agent are distributed to harmed investors. One vehicle for the distribution of
penalties is provided through the Fair Funds provision of Section 308(a) of the
Sarbanes-Oxley Act of 2002.4 The Fair Funds provision allows the Commission to
combine civil monetary penalties with disgorgements collected in Enforcement cases
to establish funds for investors harmed by securities laws violations. Since 2002,
$8.4 billion has been ordered to be distributed to harmed investors, and $1.8 billion
has been paid out, through Fair Funds.5
In February 2007, Enforcement began using a new database system called Phoenix
to track funds ordered and collected in civil cases and administrative proceedings.
In 2008, Enforcement and OIT plan to record in Phoenix activities related to
Enforcement actions, debt collections and distributions such a s administrative costs
and disbursements. Enforcement estimates it will take until 2008 to develop the
Phoenix database and implement procedures to receive and record this information.
Previously, financial information was recorded in the Commission's Case Activity
Tracking System (CATS). Phoenix can accommodate more detailed financial
information than CATS did, and unlike CATS, Phoenix provides a n audit trail
showing changes to system data.




2 See footnote 1.
3 Garnering assets refers only to receivers.
4 15 U.S.C. 5 7246.
5 GAO Report 07-830 "Securities and Exchange Commission: Additional Actions Needed to
Ensure Planned Improvements Address Limitations in Enforcement Division Operations",
August 2007, page 5.

OVERSIGHT OF RECEIVERS AND DISTRIBUTION AGENTS                       DECEMBER 12,2007
(REPORT No. 432)
                                            RESULTS
Our interviews with Enforcement staff and review of a judgmental sample of seven
cases (five civil cases and two administrative proceedings) indicated that
Enforcement's oversight of receivers/distribution agents could be improved through
better reporting by receiversldistribution agents. Currently, orders appointing
receivers/distribution agents vary in their reporting requirements.
Enforcement staff could develop templates suggesting standard requirements in the
proposed court orders they draft (for civil cases) or in the Commission orders for
administrative proceedings. While each order needs to reflect the specific
circumstances of a case, the templates could better ensure standard reporting
requirements are included in the order.
In the seven cases we sampled, the orders appointing receivers/distribution agents
required them to produce activity reports five out of seven times, statements
showing administrative costs six out of seven times, reports on the financial
condition of the assets collected three out of seven times and a final accounting two
out of seven times. Documentation in the orders specified the frequency and format
for reporting this information to a lesser extent (see Appendix).G
                                  -   .
                                      % -



A Commission inter-office working group on distributions policy concluded in May
2007 that receiversldistribution agents currently do not use a standard format for
their accounting reports. This group also found that the Commission does not have
complete or consistent records showing the amount of assets overseen by .
receivers/distribution agents.
A report issued by the Government Accountability Office (GAO) i n August 2007
concluded that Enforcement does not systematically collect or analyze key Fair Fund
data, such as administrative costs incurred by consultants. GAO also concluded that
Enforcement has not ensured that reports intended to provide expense data for
completed Fair Fund plans contain consistent information or are analyzed.
According to GAO, without such information, Enforcement's Fair Fund oversight
capacity is limited.7
Enforcement generally agreed with this report's findings and recommendations,
which are described below.


PERIODIC AND FORMALIZED REPORTING
Receivers and/or distribution agents typically report to varying degrees:
           Their activities to garner assets8 and planned future activities;


6 Even if reporting provisions are not specifically stated in a court order,
receivers/distribution agents may produce documentation a t their discretion or a t the request
of the Commission or other parties. For example, receivers/distribution agents typically
report their administrative costs on a monthly or quarterly basis.
7 GAO report 07-830, page 6.
8 Activities to garner assets refers only to receivers.


OVERSIGHT OF RECEIVERS AND DISTRIBUTION AGENTS                            DECEMBER 12,2007
(REPORT No. 432)
            Their administrative costs; and
            The financial condition of the assets collected by receivers (including a
            final accounting).
The orders appointing receivers/distribution agents or related documentation,
however, do not consistently require the above information to be reported. The
orders also do not typically speclfy the reporting frequency or format (presentation).g
As a result, information may often be provided at the receivers'/distribution agents'
discretion, in their selected format. Even if the receivers/distribution agents provide
the information listed above, a lack of consistency and the high volume of
receivers'/distribution agents' reports makes this information difficult to identify and
review.
According to Enforcement staff, while receivers/distribution agents generally act
responsibly and charge reasonable fees, they sometimes fail to discuss their current
or planned activities with Enforcement staff, over-bill for their time, claim
unreasonably high expenses and, in the case of receivers, undertake actions to
garner assets when there is little chance of success.
Enforcement staff also told us that it is often difficult to determine the
administrative costs, interest and taxes that accrued over a particular reporting
period or since the inception o f - t h ~ i v e r s h i p / c o l l e c t i o period.
                                                                              n       Sometimes this
information is not provided or, if it is, it is not separately identified. This makes it
difficult to determine the current value of the assets collected, a s well a s a
receiver's/distribution agent's aggregate administrative costs at a given time.
Financial statement reporting might be appropriate when a receiver takes over and
manages a business or public company, depending on the complexity of the
receivership and the amount of assets available to distribute to harmed investors.
I n such cases, it could be useful if a receiver provided to Enforcement periodic
financial statements (i.e., income statement, balance sheet, statement of cash flow,
statement of owner's equity).
Periodic and formalized reporting by receivers/distribution agents would help
Enforcement staff to timely review and comment on receivers'/distribution agents'
reports, evaluate the reasonableness of their administrative costs, and provide the
Commission with current information on the value of the assets collected and
accumulated administrative costs.
        Recommendation A
        As discussed above, Enforcement should decide how often (e.g., monthly or
        quarterly) and in what format receivers and/or distribution agents should
        submit information documenting:




9 Based on our evaluation, we concluded that the format for reporting a
receiver7s/distributionagent's administrative costs and the financial condition of the assets
collected were particularly important to ensure that financial information was completely,
clearly and consistently reported. The manner of reporting a receiver's activities to garner
assets may be less susceptible to a prescribed format.

OVERSIGHT OF RECEIVERS AND DISTRIBUTION AGENTS                                   DECEMBER 12,2007
(REPORT No. 432)
                Activities taken to garner assets1O and planned future activities;
               Administrative costs; and
                The financial condition of the assets collected by receivers.
         Enforcement should specify the above reporting requirements in a written
         document (e.g., in the proposed court or Ccimmission order appointing a
         receiver or distribution agent).


FINAL ACCOUNTING
Enforcement staff told u s that a t the conclusion of a receivership or disbursement of
funds, receiversldistribution agents generally provide a detailed accounting of what
assets were collected and how the assets were distributed (e.g., to pay administrative
costs, disbursements to harmed investors, the U.S. Treasury and others).
Receiversldistribution agents, however, are not typically required to present the
information described above in a specific format, and a final accounting requirement
is not consistently specified in the appointment order11 (see Appendix). Receipt of a
final accounting, in a specified format, would allow Enforcement staff to determine
more easily how all assets were distributed.
         Recommendation B
         Enforcement should request that receiversldistribution agents provide a final
         accounting, in a particular format, which identifies the assets collected and
         disbursed. The receiversldistribution agents should document the details of
         all inflows and outflows and the ending fund balance. Enforcement should
         specify this reporting provision in a written document (e.g., in the proposed
         court or Commission order appointing a receiver or distribution agent).


GUIDANCE ON STAFF OVERSIGHT OF
RECEIVERSIDISTRIBUTIONAGENTS
Enforcement staff do not currently receive training on how to work with and monitor
receiversldistribution agents. Such training would better ensure that appointment
orders specify receivers'ldistribution agents' responsibilities and could assist
Enforcement staff in identifying and objecting to excessive administrative costs.
Enforcement staff to whom we spoke generally agreed that staff training on
monitoring receiversldistribution agents would be useful.
The training should cover:
         1) An explanation of the receiver's status a s a n independent fiduciary who
            has ultimate responsibility to the appointing court (not Enforcement) and
            how this impacts issues related to attorneylclient privilege and access to

10 See footnote 8.
11 A final accounting requirement for administrative proceedings is specified in Rule 1105(f)
of the Commission's Rules of Practice and Rules on Fair Fund and Disgorgement Plans,
issued January 2006.

OVERSIGHT OF RECEIVERS AND DISTRIBUTION AGENTS                            DECEMBER 12,2007
(REPORT No. 432)
           records by receivers and Enforcement staff.
       2) How to draft a n order appointing a receiverldistribution agent and to
          specify the receiver'sldistribution agent's reporting responsibilities in the
          order.
       3) How to identify excessive billings for processing, preparation, and
          application fees; partner billings for work that could be completed by
          lower-paid attorneys or paralegals; excessive taxi or air fares; and
          overcharges for other job-related expenses.
       4) How to question or to object to excessive administrative costs;
       5) How to request information about a receiver'sldistribution agent's fees,
          and when to suggest that a receiverldistribution agent be paid on a
          contingent fee basis.
       6) Whether to recommend that a receiverldistribution agent not be
          permitted to charge for the preparation of billings, expenses and other fee
          documentation.
       7) When it is appropriate for a receiverldistribution agent to provide the
          courts and Enforcement with financial statements describing the
          condition of assets c o l ~ n how  d to ensure that the costs of compiling
          financial statements do not outweigh the benefits to harmed investors
          who may receive compensation.
       8) How to coordinate with a receiverldistribution agent and to keep informed
          of their current and planned activities, including understanding a
          receiver's strategies for garnering assets and ensuring that planned
          actions are cost-effective.
       9) How to draft a distribution plan or review a plan drafted by a
          receiverldistribution agent.
Enforcement officials told us it would be useful if Enforcement developed written
guidelines on how to manage receiversldistribution agents and a list of red flags.
Additional oversight training could be included in Enforcement's chief enforcement
conference, or informally by assigning more experienced staff to work with newer
staff.
       Recommendation %
       Enforcement should provide guidance andlor training to its staff on
       overseeing receiversldistribution agents. The guidance andlor training
       should address the points listed above.


RECEIVER/DISTRIBUTION AGENT AUDIT
I n any receivership or distribution, it is possible for a receiverldistribution agent to
submit inflated or erroneous billings and expenses. I t is also possible for a
receiverldistribution agent to erroneously or fraudulently identify a person as a
harmed investor who is entitled to compensation. Improper disbursements could be
made to persons who submitted fabricated claims.

OVERSIGHT OF RECEIVERS AND DISTRIBUTION AGENTS                         DECEMBER 12,2007
(REPORT No. 432)
    Currently, there are no provisions for a n audit of a receiver'sldistribution agent's
    records. An audit could include reviewing a sample of a receiver'sldistribution
I   agent's administrative costs and fund recipients.

    We discussed with Enforcement the benefits and drawbacks of including a provision
    in the receiverldistribution agent appointment order that a n audit may be conducted
    a t the conclusion of a receivership or distribution.

    Some Enforcement staff we interviewed suggested that an audit may be appropriate
    in certain circumstances, such as when Enforcement staff question bills or expenses,
    when a receiverldistribution agent fails to follow material reporting provisions
    specified in the appointment order, or when a receivership or distribution is
    unreasonably delayed. Enforcement staff also said the possibility of an audit might
    deter unscrupulous behavior by a receiverldistribution agent.

    The majority of Enforcement staff we interviewed stated, however, that a n audit is
    not an effective use of resources and Enforcement does not have the staff resources
    to conduct a n audit. Hiring an outside party to conduct an audit could reduce funds
    distributed to harmed investors. Staff also said it is unlikely that a
    receiverldistribution agent w o u l d ~ u l e n t l identify
                                                        y        a person a s a harmed
    investor or inflate costs because doing so would risk the person's reputation and is
    punishable by law. In addition, receiversldistribution agents are expected to employ
    internal controls to address such risks.

    Enforcement management said that once Enforcement adopts the recommendations
    already included in this report, its ongoing monitoring of receiversldistribution
    agents will be enhanced. Enforcement also plans to analyze and track (in the
    Phoenix database) the financial information it receives from receiversldistribution
    agents. Enforcement management stated that these types of on-going monitoring
    activities would make a n audit unnecessary in most instances. Enforcement
    management also said they could request an audit of a receiver's records even if an
    audit provision is not included in the appointment order. Further, in an
    administrative proceeding, the Commission may remove a distribution agent. In
    court proceedings, the court, on its own initiative or on the Commission's motion,
    may remove the receiverldistribution agent. Management also said that
    receiversldistribution agents have, in the past, reduced administrative costs that
    were questioned by Enforcement staff. Asking a receiverldistribution agent to
    reduce costs could be more efficient than conducting a n audit, according to
    Enforcement.

    Based on the information provided to us by Enforcement, we are not making a
    recommendation regarding receiverldistribution agent audits a t this time.




    OVERSIGHT OF RECEIVERS AND DISTRIBUTION AGENTS                        DECEMBER 12,2007
    (REPORT No. 432)
                                                                    APPENDIX




 AGGREGATE DATA BASED ON REVIEW OF
 SEVEN ORDERS APPOINTING RECEIVERS1
        DISTRIBUTION AGENTS

                                                            Yes       No
  1 Does the order state whether the                         5         2
    receiverldistribution agent must produce activity
    reports describing hislher progress and activities?
    If yes:
            Does the order state the frequency?              2         3
            Does the order state the format?                 0         5
                               --   -
  2 Does the order state that the receiverldistribution      6         1
    agent must provide reports detailing hislher
    administrative costs? If yes:
            Does the order state the frequency?              2         4
            Does the order state the format?                 0         6


  3     Does the order state that the                        3         4
        receiverldistribution agent must produce
        interim reports on the financial condition of the
        assets collected? If yes:
            Does the order state the frequency?              2         1
            Does the order state the format?                 0         3


  4     Does the order state that the                        2         5
        receiverldistribution agent must provide a final
        accounting? If yes:
            Does the order state the format?                 1         1




OVERSIGHT OF RECEIVERS AND DISTRIBUTION AGENTS               DECEMBER 12,2007
(REPORT No. 432)
